     Department of Homeland Security

     ��������������������������



 Guam’s Management of Homeland Security Grant 

Program Awards for Fiscal Years 2009 Through 2011





OIG-14-06                            November 2013

                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov


                                    November 7 2013


MEMORANDUM FOR:	             Brian E. Kamoie
                             Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:	                    Guam’s Management of Homeland Security Grant Program
                             Awards for Fiscal Years 2009 Through 2011

Attached for your action is our final report, Guam’s Management of Homeland Security
Grant Program Awards for Fiscal Years 2009 Through 2011. We incorporated the formal
comments from the Office of Policy, Program Analysis and International Affairs and the
Territory of Guam in the final report.

The report contains 10 recommendations aimed at improving the overall effectiveness of
the Territory’s management of State Homeland Security Program grants. Your office
concurred with all of the recommendations. Based on information provided in your
response to the draft report, we consider recommendations 2 and 3 closed, and
recommendations 5 through 10 resolved and open. Once your office has fully implemented
the recommendations, please submit a formal closeout letter to us within 30 days so that
we may close the recommendation(s). The memorandum should be accompanied by
evidence of completion of agreed-upon corrective actions and of the disposition of any
monetary amounts.

Recommendations 1 and 4 remain unresolved. As prescribed by the Department of
Homeland Security Directive 077-01, Follow-Up and Resolutions for Office of Inspector
General Report Recommendations, within 90 days of the date of this memorandum, please
provide our office with a written response that includes your (1) agreement or disagreement,
(2) corrective action plan, and (3) target completion date for each recommendation. Also,
please include responsible parties and any other supporting documentation necessary to
inform us about the current status of the recommendation.

Please email a signed PDF copy of all responses and closeout requests to
OIGAuditsFollowup@oig.dhs.gov. Until we receive and evaluate your response,
recommendations 1 and 4 are open and unresolved.
                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

Consistent with our responsibility under the Inspector General Act, we will provide copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment




                                              2







September 23, 2013


Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, S.W., Building 410
Washington, DC 20528

Dear Ms. Richards,

Williams, Adley & Company, LLP performed an audit of the Territory of Guam’s
management of the Department of Homeland Security’s State Homeland Security
Program grants for fiscal years 2009 through 2011. The audit was performed in
accordance with our Task Order No. TPDFIGBPA100008, dated September 24, 2012. This
report presents the results of the audit, and includes recommendations to help improve
the Territory’s management of the audited State Homeland Security Program grants.

Our audit was conducted in accordance with applicable Government Auditing Standards,
2011 revision. The audit was a performance audit, as defined by Chapter 2 of the
Standards, and included a review and report on program activities with a compliance
element. Although the audit report comments on costs claimed by Territory, we did not
perform a financial audit, the purpose of which would be to render an opinion on the
Territory’s financial statements, or the funds claimed in the Financial Status Reports
submitted to the Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any
questions or need further assistance, please contact us at (202) 371-1397

Sincerely,



Charbet M. Duckett
Partner



                                  WILLIAMS, ADLEY & COMPANY-DC, LLP
                        Certified Public Accountants / Management Consultants
          th
    1030 15 Street, NW, Suite 350 West • Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371-9161
                                         www.williamsadley.com
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1


   Background ........................................................................................................................ 2


   Results of Audit .................................................................................................................. 3


              Strategic Planning, Performance Measurement, and Document Retention ......... 3 

              Recommendations ................................................................................................. 9 

              Management Comments and Auditor Analysis ...................................................... 9 


              Progress and Financial Reporting ........................................................................ 10 

              Recommendations ............................................................................................... 12 

              Management Comments and Auditor Analysis .................................................... 13 


              Subgrant Management ........................................................................................ 13 

              Recommendations ............................................................................................... 16 

              Management Comments and Auditor Analysis .................................................... 17 


   Appendixes
              Appendix A:           Objectives, Scope, and Methodology .......................................... 18 

              Appendix B:           Management Comments to the Draft Report ............................. 20 

              Appendix C:           Description of the Homeland Security Grant Program ................ 28 

              Appendix D:           Guam Homeland Security Office of Civil Defense Organization 

                                    Chart ............................................................................................. 29 

              Appendix E:           Threat and Hazard Identification and Risk Assessment ............... 30 

              Appendix F:           Report Distribution ...................................................................... 31 





www.oig.dhs.gov                                                                                                                   OIG-14-06

                       OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


   Abbreviations
           BSIR     Biannual Strategy Implementation Report
           DHS      Department of Homeland Security
           FEMA     Federal Emergency Management Agency
           FFR      Federal Financial Report
           FY       fiscal year
           GHSOCD   Guam Homeland Security Office of Civil Defense
           HSGP     Homeland Security Grant Program
           MOU      Memorandum of Understanding
           OIG      Office of Inspector General
           SAA      State Administrative Agency
           SHSP     State Homeland Security Program
           SOP      standard operating procedures
           SPR      State Preparedness Report
           THIRA    Threat and Hazard Identification and Risk Assessment




www.oig.dhs.gov                                                            OIG-14-06

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   Public Law 110-53, Implementing Recommendations of the 9/11 Commission Act of
   2007, requires the Department of Homeland Security (DHS), Office of Inspector General
   (OIG), to audit individual States’ management of State Homeland Security Program
   grants. This report responds to the reporting requirement for the Territory of Guam
   (Territory) and its State Homeland Security Program grants.

   The objectives of the audit were to determine whether the Territory distributed and
   spent State Homeland Security Program grant funds (1) effectively and efficiently and
   (2) in compliance with applicable Federal laws and regulations. We also addressed the
   extent to which grant funds enhanced the Territory’s ability to prevent, prepare for,
   protect against, and respond to natural disasters, acts of terrorism, and other man-
   made disasters. The audit included a review of approximately $4.1 million in State
   Homeland Security Program grants awarded to the Territory during fiscal years 2009
   through 2011.

   In most instances, the Territory spent grant funds in accordance with applicable Federal
   laws and regulations. However, we identified several areas in which the Federal
   Emergency Management Agency (FEMA) and the Territory can improve its management
   of State Homeland Security Program grants. Specifically, the Territory needs to revise its
   State Homeland Security Strategy to include measurable objectives with realistic target
   dates for completion, perform periodic assessments of improved preparedness, and
   retain documentation for its vulnerability assessments. The Territory also needs to
   improve its subgrant management.

   As a result of the issues discussed in the report, the Territory could not fully assess
   whether State Homeland Security Program funding enhanced its preparedness and
   security. These issues existed because FEMA and the Territory did not provide sufficient
   guidance, written policies and procedures, and oversight of the grant process. Our 10
   recommendations call for FEMA to initiate improvements which, when implemented,
   should help strengthen program management, performance, and oversight. FEMA and
   the Territory concurred with all of the recommendations. Written comments to the
   draft report are incorporated as appropriate and are included in appendix B.




www.oig.dhs.gov                                1                                        OIG-14-06

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to
   help State and local agencies enhance capabilities to prevent, protect against, respond
   to, and recover from terrorist attacks and major disasters. Within DHS, FEMA is
   responsible for administering the HSGP. To support preparedness, FEMA develops
   policies, ensures that adequate plans exist and are validated, defines capabilities
   required to address threats, provides resources and technical assistance to States, and
   synchronizes preparedness efforts throughout the Nation. The State Homeland Security
   Program (SHSP) grant is one element of the HSGP, designed to fund a wide range of
   preparedness activities, including planning, organization, equipment purchase, training,
   exercises, and management and administration costs. Appendix C contains a detailed
   description of the interrelated grant programs that constitute the HSGP.

   HSGP guidance requires the Governor of each State and Territory to designate a State
   Administrative Agency (SAA) to apply for and administer grant funding awarded under
   the HSGP. The SAA is the only entity eligible to apply for HSGP funds. The Governor of
   the Territory designated the Guam Homeland Security Office of Civil Defense (GHSOCD)
   as the SAA, the entity responsible for administering the Homeland Security Grant
   Program. The SAA is responsible for managing the grant programs in accordance with
   established Federal guidelines and allocating funds to the Territory’s agencies. The
   GHSOCD organization is depicted in appendix D.

   The Territory received $4.1 million in SHSP funds during fiscal years (FY) 2009, 2010, and
   2011. SHSP supports the implementation of State Homeland Security Strategies to
   address the identified planning, organization, equipment, training, and exercise needs
   to prevent, protect against, mitigate, respond to, and recover from acts of terrorism and
   other catastrophic events.

   Due to the relatively small size of the Territory’s funding, the SAA was not required to
   subgrant funds to local jurisdictions. However, in 2009 and 2010, the SAA awarded SHSP
   funds to a total of five Territory-level government agencies. These agencies provide
   prevention, preparation, protection, and response to the entire Territory. In 2011, no
   SHSP funds were subgranted.




www.oig.dhs.gov                                2                                        OIG-14-06

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Results of Audit
           In most instances, the SAA spent SHSP grant funds in compliance with applicable
           Federal laws and regulations. However, we identified areas in which FEMA and the
           Territory can improve management of SHSP grant programs:

                  �	 Strategic planning, performance measurement, and document retention,
                  �	 Progress and financial reporting, and
                  �	 Subgrant management.

           As a result, the SAA (1) could not fully assess whether SHSP funding enhanced its
           preparedness and security; (2) may have hampered its and FEMA’s ability to
           effectively and efficiently monitor the grant expenditures, and (3) negatively
           affected planning and delayed the expenditure of grant funds.

           Strategic Planning, Performance Measurement, and Document Retention

           The SAA’s process for strategic planning contained weaknesses that minimize the
           program’s effectiveness. Specifically:

                  �	 The State Homeland Security Strategy was outdated;
                  �	 The strategy’s goals and objectives were not specific or measurable;
                  �	 The Territory’s Homeland Security Program’s effectiveness was not
                     measured; and
                  �	 Supporting documentation for the threats, risks, and vulnerability 

                     assessments were not retained. 


           Consequently, the SAA was unable to demonstrate improvements to its
           approach to all hazards as funded by Federal grant funds, and did not have a
           basis for measuring improvements in its preparedness and response capabilities.

           State Homeland Security Strategy Was Outdated

           The Territory did not have a current State Homeland Security Strategy. The SAA
           had not updated the Strategy since October 18, 2005. The Strategy contained
           outdated objectives, many of which had 2006 or 2007 target completion dates.
           Because the Strategy was not revised, the objectives and steps in the strategy
           did not necessarily reflect the current objectives of the Territory.




www.oig.dhs.gov                                   3	                                        OIG-14-06

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           The State Homeland Security Strategy is the basis for requesting funds. Funds
           received as part of the SHSP are provided to implement the goals, objectives,
           and steps contained within the approved Strategy. FEMA Guidance on Aligning
           Strategies with the National Preparedness Goal (2005) states that the State and
           Urban Areas Homeland Security Strategies should have strong foundations that
           support an ongoing process of review and refinement as new lessons are
           learned, new priorities are realized, and new homeland security guidance is
           released.

           Also, the Homeland Security Grant Program Guidance and Application Kit
           recommends revising the State Homeland Security Strategy once every two
           years. This will ensure that existing goals and objectives reflect all FEMA mission
           areas, the National Priorities, implementing the whole community approach to
           emergency planning and management to address the concerns and needs of
           local government, and existing citizen preparedness efforts.

           To ensure that spending was congruent with national goals and current threats
           to and needs of the Territory, the Territory had a process to review, revise, and
           update the State Homeland Security Strategy regularly. The Territory’s approved
           State Homeland Security Strategy included an evaluation plan that requires
           quarterly workgroup meetings to review and revise the strategic goals,
           objectives, and implementation plans. However, these meetings did not occur in
           FYs 2009-2011 and thus no revisions were performed to reflect the current goals
           and objectives.

           The SAA submitted the outdated strategies to FEMA in both FYs 2010 and 2011.
           FEMA approved the strategies without comment. No new strategy was
           submitted to FEMA for approval in 2009. FEMA personnel stated that they
           obtained information about updates in the Territory’s strategy through the
           annual investment justifications, which describe the equipment, trainings, and
           programs for which the grant funds are to be used. However, this methodology
           had shortcomings. Based upon our review, some investment justifications were
           tied to objectives in the State Homeland Security Strategy, but other
           justifications only offered a vague description of how the investment supported
           the strategy.

           While annual investment justifications may have provided important information
           regarding the Territory’s strategy, they did not provide a cohesive plan and
           measurable objectives like the State Homeland Security Strategy is designed to
           do. Without a current strategy, FEMA and the SAA could not be assured that



www.oig.dhs.gov                                 4                                         OIG-14-06

                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           actual steps performed were in line with the objectives, goals, and vision of the
           SAA.

           Strategic Goals and Objectives Were Not Specific or Measurable

           The Territory’s State Homeland Security Strategy contained many objectives that
           were vague, non-measurable, and contained outdated or missing target
           completion dates. Consequently, the goals and objectives in the Territory’s
           Strategy did not provide an adequate basis for measuring progress.

           The DHS State and Urban Area Homeland Security Strategy Guidance on Aligning
           Strategies with the National Preparedness Goal, dated July 22, 2005, states that
           a comprehensive strategy should contain both broad based, long term goals and
           corresponding short term objectives that address areas of prevention,
           protection, response, and recovery enhancements within the State or Urban
           Area. In addition, the primary determinants of an overall successful strategy are
           the quality of the goals and performance against those goals. The guidance also
           states that an objective sets a tangible and measurable target level of
           performance over time against which actual achievement can be compared,
           including a goal expressed as a quantitative standard, value, or rate. An objective
           should be:

                  �	 Specific, detailed, and focused - helping to identify what was to be
                     achieved and accomplished;
                  �	 Measurable - quantifiable, providing a standard for comparison, and
                     identifying a specific achievable result;
                  �	 Achievable - the objective is not beyond a State, region, jurisdiction, or
                     locality’s ability;
                  �	 Results oriented - identifies a specific outcome; and
                  �	 Time-limited - a target date exists to identify when the objective will be
                     achieved.

           Table 1 includes examples where the Territory’s strategy contained objectives
           that did not specifically identify what was to be achieved, did not include a
           timeline, or did not provide a standard for comparison or measurement.




www.oig.dhs.gov                                    5	                                       OIG-14-06

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Table 1. Examples of State Homeland Security Strategy Shortcomings 

           Goal                   Objective                            Deficiencies
           Goal 2 - Prevention    Objective 2-7. Strengthen local,     The objective was not:
                                  Federal, and military partnerships � Specific
                                  through the revision and             � Measurable
                                  enhancement of existing MOUs         � Time-limited
                                  and develop, if necessary, policies
                                  and protocols that address anti
                                  and counter terrorism measures,
                                  interoperability, and functionality.
           Goal 3 –               Objective 3-1. Based on training     The objective was not:
           Preparedness and       received, continue to provide 1st    � Specific
           Prevention             responders with specialized          � Measurable
                                  equipment to respond to potential � Current
                                  threats of terrorism through
                                  September 2007.
           Goal 4 –               Objective 4-1. All disciplines will  The objective was not:
           Preparedness and       have the proper specialized          � Specific
           Response               equipment to effectively respond     � Measurable
                                  to any and all terrorist and/or      � Current
                                  Chemical, Biological, Radiological,
                                  Nuclear, and Explosive Weapons
                                  incident by December 2007.
           Source: FY 2010 State Homeland Security Strategy and auditor analysis

           Although many of the objectives in the Territory’s State Homeland Security
           Strategy were not specific, measurable, or contained relevant target completion
           dates, these strategies were approved by FEMA in FY 2010 and FY 2011, without
           comment or revision. Without measurable and achievable goals and objectives,
           and a process to collect objective, results-oriented data, the SAA did not have a
           basis to evaluate the effectiveness of grant fund expenditures on the response
           capabilities of first responders.

           Additionally, vague, non-measurable goals and objectives may impede FEMA’s
           ability to assess overall program effectiveness and impact, and to report results
           to Congress, the Office of Management and Budget, and the President.

           Effectiveness of the State Homeland Security Grant Program Was Not
           Measured

           The SAA did not adequately track improved preparedness, gaps, deficiencies, or
           excesses of the State Homeland Security Program. Furthermore, the SAA had not



www.oig.dhs.gov                                   6                                             OIG-14-06

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           developed metrics to compile and analyze preparedness data to determine
           whether the objectives of the program were being met.

           Although the GHSOCD Planning and Operations Group regularly assessed
           preparedness, risks, and needs of the Territory as a whole, the group did not
           assess these as they specifically related to the SHSP funding. For example, the
           Planning and Operations Group met monthly or quarterly to determine the fuel,
           water, and shelter plans in case of a typhoon or other disasters. The results of
           these meetings were used to update the Catastrophic Typhoon Plan, as well as
           other planning documents. These documents contained information regarding
           how prepared the Territory was in case of a typhoon, and what was still needed
           to protect citizens and critical infrastructure, but was not evaluated against SHSP
           funding. As a result, the SAA could not determine the impact of its SHSP
           investments on the Catastrophic Typhoon Plan.

           Also, the SAA did not have a system to measure the effect of training. Statistics
           on training conducted or the participants in training were not being collected or
           analyzed. Training can be a key factor in improving the preparedness of the
           Territory. Without a system for compiling and analyzing the number of people
           trained or the effect of this training, the SAA could not readily determine
           whether their objectives related to training had been met.

           Measuring improved preparedness allows the SAA, FEMA, and DHS to get an
           accurate view of the outcomes of the program. Without these measurements,
           FEMA and DHS may not have had enough meaningful information to determine
           the impact of the program, which could affect their ability to report outcomes
           under the Government Performance and Results Act of 1993 and submit the
           National Preparedness Report as required under Presidential Policy
           Directive/PPD-8.

           Support for Threats, Risks, and Vulnerabilities Data Was Not Retained

           The SAA could not provide us documentation to support reported hazard and risk
           figures included in the Hazard Mitigation Plan or other assessment reports. This
           occurred because the SAA did not have written policies and procedures to
           maintain documentation to support the source of risks, threats, and vulnerability
           data. SAA officials said that because of the turnover in key leadership positions
           during the audit period, personnel that may have held knowledge or documents
           were not available.




www.oig.dhs.gov                                 7                                        OIG-14-06

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           The SAA’s threat and vulnerability reports were compiled by the response activity
           coordinators representing various Government of Guam agencies. The response
           activity coordinators met quarterly or monthly to review threats, risks,
           vulnerabilities, and the preparedness of the Territory. Based on the conclusions
           reached in the meetings and any additional research performed, the Planning
           and Operations Section updated the Hazard Mitigation Plan (April 2011), State
           Preparedness Reports, and their Threats/Hazards in the Risk Assessment report.
           The SAA did not have documentation of participation by the response activity
           coordinators in the monthly/quarterly discussions.

           The SAA did not have policies and procedures for the strategic planning,
           measurement, and documentation processes. This negatively affected its ability
           to update the State Homeland Security Strategy and to assess improved
           preparedness, gaps, excesses, and deficiencies of its implementation of the State
           Homeland Security Grant Program.

           According to SAA officials, the SAA also typically experienced very high personnel
           turnover, due mainly to changes in the Government of Guam administration and
           a shortage of permanent positions within the agency. At the time of our audit,
           the vast majority of employees at the SAA were “classified employees,” meaning
           employees that can be replaced at will by the Governor. This had been a
           relatively common occurrence in recent years, and continuity had been a major
           challenge for the SAA. For instance, during the past two years, there have been
           three different Homeland Security Advisors and two different Grants Managers.
           Due to high personnel turnover and because written policies and procedures did
           not exist, SAA personnel were unclear about which individual or group was
           responsible for updating the State Homeland Security Strategy and conducting
           performance measurement activities.

           Insufficient documentation limited FEMA’s ability to determine the accuracy of
           reported risk and vulnerability data and could have made the evaluation process
           more difficult in the event of turnover of SAA staff.

           In April 2012, FEMA required State and local governments that receive FEMA
           preparedness grants to complete a Threat and Hazard Identification and Risk
           Assessment (THIRA) by December 31, 2012. The THIRA provides a
           comprehensive approach for identifying and assessing risks and associated
           affects, using the core capabilities identified in the National Preparedness Goal.
           In addition to the THIRA, States and Territories receiving FEMA preparedness
           grants are required to annually submit a State Preparedness Report. FEMA
           officials stated that THIRA results and the State Preparedness Report would


www.oig.dhs.gov                                 8                                        OIG-14-06

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           provide a quantitative summary of preparedness. However, we did not review
           the THIRA process because it was not within the scope of our review. See
           appendix E for more information about the THIRA.

           Recommendations

           We recommend that the FEMA Assistant Administrator, Grant Programs
           Directorate:

           Recommendation #1:

           Advise the SAA to develop formal written policies and procedures to:
              �	 Regularly evaluate, assess, and revise the State Homeland Security
                  Strategy to reflect current objectives of the Territory, and
              �	 Establish goals, objectives, and implementation steps.

           Recommendation #2:

           Require the SAA to update the State Homeland Security Strategy to:
              �	 Reflect current goals, objectives, steps, timeframes, and measurements;
                  and
              �	 Contain specific, measurable, and time-limited goals and objectives that
                  would serve as the baseline to measure improved preparedness.

           Recommendation #3:

           Require the SAA to routinely gather quantitative and qualitative data to allow
           the SAA to determine if it has accomplished its domestic preparedness goals and
           objectives.

           Recommendation #4:

           Require the SAA to retain sources of information and documentation used to
           develop and compile threat and hazard analyses.

           Management Comments and Auditor Analysis

           Management comments to recommendation 1. At our exit conference with
           FEMA to discuss the findings and recommendations as presented in the draft
           report, we agreed to separate the third bullet in recommendation 1 into a
           distinct recommendation. This newly created recommendation 4 will permit


www.oig.dhs.gov                               9	                                      OIG-14-06

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           FEMA to address potential corrective actions more effectively. We have also
           relabeled the subsequent recommendations 4 through 9 as 5 through 10.

           FEMA and the Territory concurred with the recommendations. FEMA did not
           specifically address recommendations 1 or 4. These recommendations were
           intended to ensure policies and procedures exist to assist the SAA in executing
           its grant management functions and retain supporting documentation. The
           recommendations will remain unresolved and open until FEMA provides suitable
           corrective action plans and target completion dates.

           Regarding recommendations 2 and 3, according to FEMA, it has established and
           implemented a system to help states, territories and urban areas establish
           measurable goals and objectives that will enable them to measure
           improvements in capabilities and preparedness. The National Preparedness Goal
           and the National Preparedness System serves as the framework for assessing
           grant effectiveness. FEMA has developed and is implementing performance
           assessments that measure progress toward achieving the Goal. The THIRA will be
           used to create a baseline and targets for FY 2013 and beyond. FEMA has also
           redesigned the State Preparedness Report (SPR) to help states demonstrate and
           track preparedness improvement over time. The SPR is a standardized capability
           assessment that compares the THIRA targets to current capability, and
           documents any gaps that exist. Finally, the use of the THIRA, SPR and the
           investment justifications methodology provides the goals and assessment of
           progress against those goals.

           According to FEMA, the Territory has submitted its FY 2012 THIRA and SPR, and
           submitted investment justifications based on its THIRA and SPR.

           We consider FEMA’s and the Territory’s actions responsive to the intent of
           recommendation 2 and 3. These recommendations are considered resolved and
           closed.

           Progress and Financial Reporting

           The SAA did not submit Federal Financial Reports (FFR) and biannual progress
           reports (Biannual Strategy Implementation Reports, or “BSIR”) within the
           specified timeframes. Additionally, some BSIRs were not submitted at all.

           The SAA was required by the grant award and grant guidance to submit quarterly
           FFRs and biannual BSIRs, which provided updated obligation and expenditure



www.oig.dhs.gov                               10                                         OIG-14-06

                               OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           information to FEMA. These reports were due within 30 days of the end of each
           reporting period.

           For the FY 2009, 2010, and 2011 grants, the SAA submitted 17 out of 27 FFRs late
           as shown in table 2 below:

           Table 2. Summary of Late Federal Financial Reports
                                               Submission Due   Actual Submission
             Grant Year          To                                                 Days Overdue
                                                    Date               Date
                             09/30/2009           10/30/09          10/31/09              1
                             06/30/2010           07/30/10          08/24/10             25
                             09/30/2010           10/30/10          11/02/10              3
                             03/31/2011           04/30/11          05/02/11              2
               2009          06/30/2011           07/30/11          07/31/11              1
                             12/31/2011           01/30/12          01/31/12              1
                             03/31/2012           04/30/12          05/06/12              6
                             06/30/2012           07/30/12          08/22/12             23
                             09/30/2012           10/30/12          10/31/12              1
                             09/30/2010           10/30/10          07/31/11            274
                             12/31/2010           01/30/11          07/31/11            182
               2010          12/31/2011           01/30/12          01/31/12              1
                             03/31/2012           04/30/12          05/06/12              6
                             06/30/2012           07/30/12          08/22/12             23
                             03/31/2012           04/30/12          05/06/12              6
               2011          06/30/2012           07/30/12          08/22/12             23
                             09/30/2012           10/30/12          10/31/12              1
           Source: Auditor analysis of FFR data

           Also, the FFR for the period ending September 30, 2010 (for FY 2009) did not
           contain the correct drawdown amount. The drawdown amount reported was $0,
           but the FFR should have shown a drawdown amount of $147,142. This error was
           corrected in the next reporting period, March 31, 2011.

           BSIRs were due twice per year, but many BSIRs were not submitted. Of the 12
           BSIRs that should have been submitted for FY 2009 through FY 2011, only 3 BSIRs
           were actually submitted (FY 2009 Grant: December 2009, June 2010, and
           December 2010). The remaining 9 BSIRs were not submitted.

           The SAA did not have an adequate process to ensure that the FFRs and BSIRs
           were submitted within the 30 day requirement. Furthermore, its Financial
           Standard Operating Procedures required submission of FFRs within 45 days of



www.oig.dhs.gov                                    11                                         OIG-14-06

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           period end, a timeframe that was incongruent with SHSP requirements. The SAA
           did not have a written policy to ensure the timely submission of BSIRs.

           There had also been high turnover in key positions within the SAA. New staff had
           not been trained on how to prepare and submit BSIRs.

           The quarterly FFR and biannual BSIRs were designed to provide DHS and FEMA
           with financial and programmatic information about the grant program that could
           be used to monitor the implementation of the program. Therefore, the ability to
           effectively and efficiently monitor the grant expenditures for the Territory could
           be hampered by the untimely submission of the FFRs and non-submission of the
           BSIRs. Also, per its grant award, the Territory could be prohibited from drawing
           down funds while those FFRs and BSIRs are delinquent, thereby precluding the
           Territory from improving its ability to prevent, protect against, respond to, and
           recover from acts of terrorism and other catastrophic events.

           Recommendations

           We recommend that the FEMA Assistant Administrator, Grant Programs
           Directorate:

           Recommendation #5:

           Require the SAA, in conjunction with Guam’s Department of Administration, to
           develop and update, as necessary, policies, procedures, and controls to ensure
           timely submission of financial and progress reports in accordance with the grant
           guidelines.

           Recommendation #6:

           Instruct the SAA management to obtain training for the staff on FFR and BSIR
           reporting and submission process and deadlines, and communicate to all
           relevant employees the 30-day due date for the FFR and BSIR submissions.

           Recommendation #7:

           Enforce the FFR and BSIR submission requirements and provide technical
           assistance as needed to facilitate timely submission.




www.oig.dhs.gov                                12                                       OIG-14-06

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Management Comments and Auditor Analysis

           FEMA and the Territory concurred with the recommendations. FEMA will require
           the SAA to develop a handbook or standard operating procedures (SOP) within
           180 days, will work with the SAA on its design and development, and will ensure
           that reporting requirements are included in the financial and programmatic SOP.
           FEMA will require the SAA to submit all outstanding BSIR submissions within
           90 days.

           We consider FEMA’s actions responsive to the intent of recommendation 5, 6,
           and 7. These recommendations are resolved and will remain open until FEMA
           provides evidence of receipt of all BSIRs and development and implementation
           of a new SOP and staff guidance.

           Subgrant Management

           The SAA did not allocate subgrant funds in a timely manner, nor provide
           sufficient monitoring of subgrantees. As a result, subgrantee difficulties with
           project implementation went undetected or unaddressed by the SAA for the FY
           2009 grant, resulting in the expiration and return of $28,645 to FEMA.

           The Territory subgranted SHSP funds to four Territory-level agencies in FY 2009,
           and one in FY 2010. The subgranted funds were primarily used for equipment
           and training. According to SAA officials, in FY 2011, the Territory did not have any
           subgrantees so that the funding could be focused on establishing a regional
           fusion center. The subgrantees for FY 2009 and FY 2010 are summarized below:

           Table 3. Subgrant activity
             Grant Year                        Subgrantee                   Amount

                          Guam Police Department                            $157,000
                          Department of Public Health and Social Services     50,000
              FY 2009
                          Port Authority of Guam                              50,000
                          Customs & Quarantine Agency                         10,000
              FY 2010    Guam International Airport Authority               $141,125
           Source: Guam Homeland Security Office of Civil Defense

           The Government of Guam required that each subgrant have a memorandum of
           understanding (MOU) between the grantee and the subgrantee. These MOUs
           required multiple signatures and required extensive time to complete.
           Additionally, administrative accounts were to be established in the Territory’s


www.oig.dhs.gov                                     13                                   OIG-14-06

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           accounting system before disbursements or receipts could begin at the individual
           agencies. The Port Authority and Guam International Airport were independent
           agencies, meaning that they recorded expenditures in their own accounting
           system and submitted invoices to the SAA for reimbursement. The other three
           agencies were on the same accounting system as the SAA. Once subgrantee
           accounts were established in the accounting system, these agencies could make
           purchases using SHSP funds. The establishment of accounts could also be time-
           consuming.

           Untimely Allocation of Funds to Subgrantees

           The SAA did not allot funding to subgrantees in a timely manner for FY 2009 and
           FY 2010. The primary factors that led to the delay in allotment of subgranted
           funds were lengthy signature process for the MOUs and work requests, and
           delays in establishing the primary administrative account. The time between
           grant award and allotment ranged from five months to more than a year and a
           half, as summarized in table 4 below:

           Table 4. Delay in Allotment of Subgranted Funds
                                                                   Grant    Date funds Days between
                                                                   Award    allotted to award date and
             Grant                   Subgrantee                     Date    subgrantee date of allotment
                      Dept. of Customs & Quarantine                          03/29/11         605
                      Dept. of Public Health and Social Services             10/22/10         447
            FY 2009                                                08/21/09
                      Guam Police Department                                 11/11/10         467
                      Port Authority of Guam                                 03/05/11         581
            FY 2010   Airport Authority of Guam                    08/01/10 01/07/11          159
           Source: Auditor analysis of grant awards and subgrant award documents

           With an extended period of performance end date of December 31, 2012, the FY
           2009 subgrantees had two years or less to expend the funds before they expired.

           In order for a subgrantee to begin expending funds, it must sign a MOU with the
           grantee. Various levels within the SAA, the Governor, the Office of the Attorney
           General, the Director of the Bureau of Budget Management Records, and others
           as necessary must also sign the MOU. Obtaining all required signatures could be
           a lengthy process, and frequent turnover in key positions at both the SAA and
           subgrantee level had made the MOU process more difficult.

           After the MOU had been signed, a work request must also be prepared in order
           for the subgrantee to begin drawing on their allotted funds. For the Department
           of Public Health and Social Services and the Guam Police Department, the work


www.oig.dhs.gov                                      14                                           OIG-14-06

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           requests were not completed until October 2011 and March 2011, respectively.
           This further reduced the amount of time the subgrantees had to expend their
           funds to 14 months and 21 months, respectively. The delay in establishing a
           work request was also due primarily to the signature requirements and changes
           in administration.

           In addition, the Bureau of Budget Management Records must establish the main
           administrative account in the accounting system prior to setting up a subgrantee
           account. For FY 2009, the main account was not established until six months
           after grant award, and for FY 2010, it was five months, thus delaying the
           allocation to the subgrantees.

           Untimely allotment of funds to subgrantees prevented the SAA from purchasing
           and receiving the equipment, training, and exercises it needed in a timely
           manner, which could have affected the Territory’s ability to respond in the event
           of a disaster. For example, the Port Authority of Guam requested FY 2009
           funding to purchase a fully equipped emergency response vehicle to address a
           shortage of emergency response vehicles available to protect the Territory’s
           ports in case of an emergency. Due to the one and a half year delay in receiving
           grant funds, the Port Authority was unable to purchase the vehicle until three
           years after the initial request. This delay could have affected its emergency
           response during that period.

           The SAA Did Not Sufficiently Monitor Subgrantees

           The SAA did not sufficiently monitor subgrantees. The SAA’s monitoring activities
           did not include a written plan or monitoring schedule that identified the
           individual or department responsible for performing the site visits, the
           information that should be obtained, documentation requirements, frequency of
           site visits, or instructions and conditions for follow up visits. To determine the
           performance of the subgrantees, the subgrantee MOU required quarterly
           progress reports. These reports showed the amount expended and allowed the
           subgrantee to indicate whether they were experiencing any problems
           implementing the program. However, these progress reports were not adequate
           to assess the performance of the subgrantee or to assess their strengths and
           areas for improvement.

           The SAA did not have written policies and procedures for subgrantee monitoring
           that included financial, performance, and equipment activities. The process also
           did not encourage early planning for MOU preparation or financial monitoring of
           spending to ensure that reallocation was addressed early.


www.oig.dhs.gov                                15                                       OIG-14-06

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           Insufficient monitoring was also noted in FEMA’s 2010 monitoring visit.
           According to the SAA, it developed a site visit plan and began performing site
           visits in November 2012 to respond to FEMA’s recommendation. However, the
           SAA did not have a copy of the monitoring plan or the written results of the
           monitoring visits. The SAA provided us a list of seven site visits performed since
           November 2012. These visits were primarily equipment related and did not
           address financial activities or programmatic accomplishments.

           Without a system to monitor subgrantee program compliance, the SAA could not
           determine whether program goals were met, preparedness was improved, or
           funds were being expended in accordance with the MOU and grant
           requirements. Also, the Territory had an increased risk of misappropriation or
           misuse of assets purchased with grant funds.

           In summary, due to the delay in allotment of funds, the subgrantees only had
           two years or less to spend their entire subaward. Because of this shortened
           timeframe, three of the four subgrantees required extensions to their MOUs,
           and the SAA required a grant extension from FEMA. Even with these extensions,
           two of the subgrantees did not expend their funds until the last month of the
           extension period. Because of insufficient monitoring, subgrantee difficulties with
           project implementation went undetected or unaddressed by the SAA for the FY
           2009 grant. One FY 2009 subgrantee did not spend their allotted grant funds by
           the deadline, resulting in the expiration and return of $28,645 to FEMA. If the
           SAA had adequate subgrantee monitoring procedures in place, these subgrantee
           issues may have been identified and addressed in a timely manner.

           Recommendations

           We recommend that the FEMA Assistant Administrator, Grant Programs
           Directorate:

           Recommendation #8:

           Require the SAA to assess the administrative subgrantee obligation approval
           process to determine areas for increased efficiencies.




www.oig.dhs.gov                                16                                        OIG-14-06

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #9:

           Require the SAA to provide instructions to, and coordinate with, subgrantees in
           advance of grant award to determine MOU signature requirements and ensure
           required signatures are obtained as quickly and efficiently as possible.

           Recommendation #10:

           Require the SAA to develop, document, and implement a system for monitoring
           and assessing subgrantee performance, including regular site visits of
           subgrantees that address programmatic and financial performance.

           Management Comments and Auditor Analysis

           FEMA and the Territory concurred with the recommendations. FEMA will require
           the SAA to assess and streamline processes and procedures for obligating and
           reimbursing funds to subgrantees within 90 days. The SAA will also be required
           to provide a written policy for subawards between or with the Territory’s
           agencies that receive HSGP funding, and develop policies and procedures related
           to timeliness of subobligations and subgrantee performance, with technical
           assistance from FEMA.

           We consider FEMA’s actions responsive to the intent of recommendation 8, 9,
           and 10. These recommendations are resolved and will remain open until FEMA
           provides evidence of the preparation and implementation of the written policies
           and procedures related to subgrantee obligations and monitoring.




www.oig.dhs.gov                               17                                       OIG-14-06

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   DHS OIG was established by the Homeland Security Act of 2002 (Public Law 107-296) by
   amendment to the Inspector General Act of 1978. This is one of a series of audit,
   inspection, and special reports prepared as part of our oversight responsibilities to
   promote economy, efficiency, and effectiveness within the Department.

   This report provides the results of our work to determine the plans developed by the
   Territory to improve preparedness and all hazards response, the goals set within those
   plans, the measurement of progress towards the goals, and the assessments of
   performance improvement that result from this activity. Further, the scope included the
   assessment of these activities within the context of risk to determine if the Territory’s
   plans produced strategic performance improvements related to the highest areas of risk
   rather than merely producing improvements in a broader sense.

   Together, the entire Homeland Security Grant Program and its five interrelated grant
   programs fund a range of preparedness activities, including planning, organization,
   equipment purchase, training, exercises, and management and administration costs.
   Because of the interrelationship of these grant programs, all were considered when
   evaluating the planning cycle and the effectiveness of the overall grant program.
   However, only State Homeland Security Program funding, and equipment and programs
   supported by the grant funding, were reviewed for compliance.

   We visited seven total sites, including the State Administrative Agency (Guam Homeland
   Security Office of Civil Defense), Guam’s General Services Agency, and the following five
   subgrantees:

           �      Port Authority of Guam
           �      Airport Authority of Guam
           �      Department of Customs and Quarantine
           �      Department of Public Health and Social Services
           �      Guam Police Department

   The scope of the audit included the State Homeland Security Program grant awards for
   FYs 2009, 2010, and 2011, as shown in table 5.




www.oig.dhs.gov                                  18                                    OIG-14-06

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Table 5. SHSP Awards to Guam FYs 2009 through 2011 

   Grant Program            FY 2009         FY 2011           FY 2011            Total

   SHSP                    $1,430,000     $1,469,600        $1,157,680         $4,057,280
   Source: FEMA

   The team reviewed a statistical sample of the State Homeland Security Program grant’s
   expenditures representing 42 percent of the dollar value expended for all grant years to
   determine the sufficiency of internal controls.

   We conducted this performance audit between October 2012 and April 2013, pursuant
   to the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.

   Although this audit included a review of costs claimed, we did not perform a financial
   audit of those costs. This was a performance audit as defined by Chapter 2 of the
   Government Auditing Standards, and included a review and report of program activities
   with a compliance element.




www.oig.dhs.gov                               19                                         OIG-14-06

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                         U.S. Ot pnrlm t nl of l fomelnnd Sccurit)'
                                                                                         \Vash;ngton. DC 20472




                                                    AUG 2 2 2013

                  MEMORANDUM FOR:              Anne L. Richards
                                               Assistant Inspector General for Audits (OIG)
                                               Department of Homeland Security

                  FROM:                     ~ 0 1David J. Kaufm an     t\X}I\
                                               Associate Administrator. MJ •
                                               Policy, Program Analysis and International Affairs
                                               Federal Emergency Management Agency (FEMA)

                  SUBJECT:                     FEMA ·s Response to 0 1G-12-124-AUD-FEMA Draft Report
                                               "Guam·s Management of State Homeland Security Program
                                               Grants Awarded During f iscal Years 2009-2011 '·.


                  Thank you for the work you and your team did to better inform us through this audit; as well as
                  for the oppornmity to review and comment on OJG- 12- 124-AUD-FEMA Draft Repo rt "Guam' s
                  Management of State Homeland Security Program Grants Awarded During Fiscal Years 2009-
                  20 I I". The ti na! report contains nine (9) recommendations, of which, FEMA concurs with a ll 9
                  recommendations. FEMA has provided a consolidated response for recommendations 1-3.
                  FEYI.A is requesting closure of recommendations 1-3 and resolved and open for
                  recommendations 4-9.

                  OlG Recommendation I: We recommend that the FEMA Assistant Administrator. Grant
                  Programs Directorate advise the SAA to develop formal written policies and procedures to:
                     • Regula rl y eva luate, assess, and revise the State Homeland Security Strategy to reflect
                        current objectives of the Territory;
                     • Establish goals, obj ectives, and implementation steps; and
                     • Retain sources of information and documentation used to develop and compile thn~at and
                        hazard analyses.

                  FEMA Response to R ecommendation 1: Concu.-. {See consolidated re!>ponse below for
                  recommendations 1-3)

                  OIG Recommendation 2:
                  \Ve recommend that the FEMA Assistant Administrator, Grant Programs Directorate require the
                  SAA to update the State Homeland Security Strategy to:
                     • Reflect current goals, objectives, steps, timeframcs, and measurements; and
                     • Contain specific. measurable, and time-limited goals and objectives that would serve as
                         the baseline to measure improved preparedness.
                                                                                        www.femn.gov




www.oig.dhs.gov                                                  20                                                                   OIG-14-06

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              I<'EMA Response to Recommendation :Z: Concur. (See consolidated response below for
              recommendations 1-3)

              OIG Recommendation 3: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate require the SAA to routinely gather quantitative and qualitative data to
              allow the SAA to determine if it has accomplished its domestic preparedness goals and
              objectives.

              FEMA Consolidated Response to Recommendations 1-3: Concur. The OIG has
              recommended that FEMA help states, territories and urban areas establish measurable goals and
              objectives that will enable them to systematically measure improvements in first responder
              capabilities and statewide preparedness. FEMA bas established and implemented a system to do
              exactly that, as described below.

              F'EMA bas made substantial progress in the measurement of grant effectiveness. Among other
              changes, the National Preparedness Goal (the Goal) and the National Preparedness System now
              serve as the framework for assessing grant effectiveness. FEMA' s strategy for developing
              metrics and assessing grant performance begins v.ith the Goal.

              The Goal defines the core capabilities necessary to prepare for the threats and ha7.m-ds that pose
              the greatest risk to the security ofthe Nation; this includes concrete, measurable objectives to
              manage those risks. The Goal's capability targets provide concrete statements of the Nation's
              requirements in each core capability.

              Measuring Grant Effectiveness

              As part of the National Preparedness System, FEMA has developed and is implementing
              perfonnance assessments that measure progress toward achieving the Goal. FEMA's strategy is
              to base assessments on the principles that the Nation needs to understand existing risks, use those
              risks to determine required capabilities, assess current capability levels against those
              requirements, and track its progress in closing identified capability gaps.

              ln 2012, FEMA released a consistent methodology for detenniningrisks in the Comprehensive
              Preparedness Guide 20 I: Threat and Hazard Identification and Risk Assessment (THIRA) Guide
              (CPG-201). CPG-201 details a five-step process jurisdictions can use to achieve desired
              outcomes and capability targets for each of the core capabilities. This approach allows a
              jurisdiction to establish its own capability targets based on the risks it faces.

              On December 31,2012, states, territories, and major urban areas receiving Homeland Security
              Grant Program (HSGP) funds were required to submit their THIRAs to FEMA. Once each
              jurisdiction has deteimined capability tnrgets through the THIRA process, it estimates its current
              capability levels against those targets.

              Also in 2012, states and territories were required to submit State Preparedness Reports (SPRs) to
              FEMA. The TifiRA and SPR processes are scalable to allow sub-jurisdictions, sub-grantee~ and
              subject matter experts to provide input to the state or territory. Taken together, the THIRA


                                                               2




www.oig.dhs.gov                                                21                                                   OIG-14-06

                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




              results and the SPR identify capability needs and gaps. The THIRA and SPR results highlight
              gaps in capability and the progress of grantees in closing those gaps over time. FEMA reports
              the results ofthc capability assessments annually in the National Preparedness Report (NPR).

              Sustaining, BuDding and Delivering Capabilities

              Having estimated capability requirements, the next component of the National Preparedness
              System is to build and sustain capabilities. This step ties grant investments directly to needs and
              shortfalls. Grantees address documented capability requirements and gaps in their grant
              applications. In the Investment Justifications (IJ) submitted in the grant application, grantees
              must specifically identify the core capability or capabilities, the priority of the core capability as
              well as the capability gaps noted in their SPR that investment intends to address.

              In addition, the grantee must identify the specific outcome(s) that the investment will yield.
              FEMA verifies completion of the investment/project through its programmatic monitoring and
              spending on the investment through the Biannual Strategy Implementation Report (BSIR), also a
              tool used in the monitoring process. Since the period of performance for the Homeland Security
              Grant Program is two years, a time limit is set for completion of the project once it is funded.

              FEMA addressed the OIG recommendation for States to establish SMART goals and objectives
              that will enable States and Territories to systematically measure improvements in first responder
              capabilities and statewide preparedness by requiring states to use a set of tools including the
              THIRA, SPR, and IJ's. Strategy updates are encouraged but not required as the 1HIRA, SPR and
              IJ methodology provide the goals and assessment of progress against those goals.

              Finally, CPG 201: Threat and Hazard Identification and Risk Assessment Guide Supplement 1:
              Toolkit provides all the required templates to complete the 1HIRA process including information
              and documentation used to develop and compile threat and hw..ard information. As the THIRA
              will be an annual iterative process, subsequent iterations will build on the documents from
              previous years.

              Guam has submitted their FY 2012 THIRA and SPR. In accordance with the FY 2013 Homeland
              Security Grant Program Funding Opportunity Announcement, Guam bas submitted investment
              justifications based on their THIRA and SPR."

              FEMA believes that use of the THIRA, SPR and IJ satisfies the intent of these recommendations
              and requests that they be closed.

              OIG Recommendation 4: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate require the SAA, in conjunction \llith Guam's Department of
              Administration. to develop and update, as necessary, policies, procedures, and controls to ensure
              timely submission of financial and progress reports in accordance with the grant guidelines.




                                                                3




www.oig.dhs.gov                                                 22                                                     OIG-14-06

                                        OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              FEMA Response to Recommendation 4: Concur. FEMA will require ""ithin 180 days of the
              date of the final report that the SAA develop a handbook for staffthat can be used as a guide or
              standard operating procedure (SOP), which will include policies and procedures to ensure all
              required financial anc!Jor progress reports are submitted on time. The guide will be designed as a
              hand off document that new or existing staff can use to guide them through the various financial
              and programmatic reporting requirements. The FEMA program analyst (PA) will work closely
              with headquarters and regional finance managers and Guam in its design and development.

              FEMA believes this action will satisfy the intent of the recommendation and the
              recommendation should remain resolved and open pending the submission of a Homeland
              Security Grant Program (HSGP) financial and programmatic reporting SOP.

              OIG Recommendation 5: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate instruct the SAA management to obtain training for the staff on FFR and
              BSIR reporting and submission process and deadlines, and communicate to all relevant
              employees the 30-day due date for the FFR and BSIR submissions.

              F.EMA Response to Recommendation 5: Concur. FEMA will require within 180 days of the
              date of the final report that the SAA develop a handbook for staff that can be used as a guide or
              standard operating procedure (SOP), which will include policies and procedures to ensure all
              required reports are submitted on time. The guide will be designed as both a band off document
              for the training and indoctrination of new staff, and as a refresher I reference guide for existing
              staff. This SOP/ Guidebook ""ill address various financial and programmatic reporting
              requirements such as completion of required financial reports. The FEMA program analyst (PA)
              will work closely with Guam in the instruction I guidebook's design and development and
              implementation of the contained SOPs.

              FEMA believes this action ""ill satisfy the intent of the recommendation and the
              recommendation should remain resolved and open pending the submission of a HSGP financial
              and programmatic reporting SOP.

              OIG Recommendation 6: We recommend that the FEMA Assistant Administrator, Grilllt
              Programs Directorate enforce the FFR and BSIR submission requirements and provide technical
              assistance as needed to facilitate timely submission.

              FEMA Response to Recommendation 6: C<mcur. FEMA will require the SAA to submit all
              ou1standing BSIR submissions to GPD within 90 days of the date of the final report. The
              program analyst (PA) will also ensure that the SAA includes specific reporting requiremen1s for
              the BSIR reports in the proposed HSGP frnancial and programmatic reporting SOP as found
              under recommendations# 4 and 5. Once the requested information is received back from the
              SAA, GPD will evaluate it to determine if it meets the intent of tbe recommendation.

              FEMA feels that these steps will satisfy the intent of the recommendation, and the
              recommendation should remain resolved and open pending implementation of new SOP's and
              staff written guidance.




                                                               4




www.oig.dhs.gov                                                23                                                   OIG-14-06

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              OIG Recommendation 7: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate require the SAA to assess the administrative subgrantee obligation
              approval process to determine areas for increased efficiencies.

              FEMA Response to Recommendation 7: Concur. FEMA will require the SAA to assess and
              streamline (within applicable territorial regulations} processes and procedures for obligating and
              reimbursing funds to sub-grantees. FEMA would like to point out that FEMA grant guidance;
              i.e., Homeland Security Grant Program (HSGP) Funding Opportunity Announcement (FOA),
              does not require Guam to establish a sub·grantee pass through policy or mechanism to sub award
              grant program funds. Guam will be required to establish a written policy to sub award grant
              program funds between or with Guam State Agencies who receive HSGP funding. The SAA will
              report to FEMA what steps Guam intends to take to sub obligate funds to Guam's sub-grantees.

              The grantee shall be asked to respond within 90 days ofthe date of the final report FEMA feels
              that once fully implemented, the measures proposed will satisfy the intent of the
              recommendation, and the recommendation should remain resolved and open.

              OIG Recommendation 8: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate require the SAA to provide instructions to, and coordinate with,
              subgrantees in advance of grant award to determine MOU signature requirements and ensure
              required signatures are obtained as quickly and efficiently as possible.

              FEMA Response to Recommendati1m 8: Concur. FEMA will require the SAA to develop
              written policies and procedures to ensure that funds when obligated to sub-grantees are within
              the timefrarne established in the Guidance. The grantee shall be asked to respond "'ithin 90 days
              of the date of the date of the final report

              FEMA feels that once fully implemented, the measures proposed will satisfy the intent of the
              recommendation, and the recommendation should remain resolved and open.

              OIG Recommendation 9: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate require the SAA to develop, document, and implement a system for
              monitoring and assessing subgrantee performance, including regular site visits of subgrantees
              that address programmatic and financial performance.

              FEMA Response to Recommendation 9: Concur. FEMA will coordinate the provision of
              Grants Management Technical Assistance (GMTA) for the SAA '>'i.thin 90 days of the date of
              the date of the final report. The program analyst (PA) will work with Guam to develop templates,
              policies and procedures to establish monitoring protocols, and memorandum of agreement
              (MOA 's) used by Guam to issue sub awards with grantees.

              FEMA feels that once fully implemented, the measures proposed will satisfy the intent of the
              recommendation, and the recommendation should remain resolved and open.




                                                              5




www.oig.dhs.gov                                               24                                                   OIG-14-06

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              Thank you again for the opportunity to review and comment on 010-12-124-AUD-FEMA Draft
              Report ''Guam's Management of State Homeland Security Program Grants Awarded During
              Fiscal Years 2009-20 11" and for the work that you and your team have done to better inform us
              throughout this audit so that we may enhance the program's overall effectiveness. We look
              forward to your final report for this audit Please direct any questions regarding this response to
              FEMA's Chief Audit Liaison; Gary McKeon. His number is 202-646-!308.




                                                              6




www.oig.dhs.gov                                               25                                                   OIG-14-06

                                             OFFICE OF INSPECTOR GENERAL
                                                  Department of Homeland Security




                                    GUAM HOMELAND SECURITY/OFFICE OF CIVIL DEFENSE
                                                  /Jraslguran 1 Tallo ' Gualru/Ufisinan Diferr<ia Siber
                                               221-B Chalan Palasyo, Agana Heights, Guam 96910
                                                     Tel: (671) 47S-9600 I Fax: (671) 477-3727
            Eddie Bau Calvo                                Website: www.gbs.guam.gov                             Ambrosio D. Constantino, Jr.
               Got·ernor                                                                                          /lome/and Set.111ity Achrisor
              Ray Tenorio                                                                                            Jan~t3 T. McDonald
              Lt. Got•er11or                                                                                         Acting AdminiJtrator




                                                                                        August 29, 2013



                  Ms. Charbet M. Duckett
                  Partner
                  Williams, Adley & Company-DC, LLP
                  1030 15" Street, NW Suite 350 West
                  Washington, DC 20005

                  RE:        Guam's Management of State Homeland Security Program Grants Awarded
                             During Fiscal Years 2009-2011: Task Order No. TPDFIGBPAlOOOOB- September 24,2012

                  Dear Ms. Duckett:

                  In response to the audit that was performed on the State Homeland Security Program Grants fo r Guam
                  Homeland Security/Office of Civil Defense, we are transmitting our responses and corrective action plans on
                  findings contained in the audit report to the Office of Inspector General, Department of Homeland Security
                  for the above-mentioned period

                        1.     Strateeic Plannlne. Per[ormance Measurement and Document Retention•
                               Yes, we concur w ith the findings and recommendations.

                               Response and Proposed Action - Recommendation #1:
                               Develop written Standard Operating Procedures (SOP) which includes the Territorial Homeland
                               Security Strategy. The SOP will be developed within 3 months (30 November 2013).

                               Response and Proposed Action- Recommendation #2:
                               Review and update the Territorial Homeland Security Strategy Goals and Objectives. The
                               Territorial Homeland Security Strategy will be completed within 9 months (31 May 2014.)

                               Response and Proposed Action- Recommendation #3:
                               On a quarterly basis, review threats and hazards against territorial capabilities to determine if
                               goals and objectives are met. Reviews will be a reoccurring event and will begin 30 September
                               2013.

                               Response and Proposed Action -Recommendation #4:
                               Work with Marianas Regional Fusion Center to develop a Threat & Hazard Analysts. Analysts
                               will be a recurring product commencing on 1 October 2013.

                        2.     Progress and Financial Reportin1:
                               Yes, we concur with the findings and recommendations.

                               Response and Proposed Action -Recommendation #5:
                               The GHS/OCD will coordinate with Department of Administration In developing the Grants SOP,
                               which will include reporting procedures in accordance with grant guidelines provided each year.
                               SOP will be developed within three (3) months.




www.oig.dhs.gov                                                            26                                                                     OIG-14-06

                                               OFFICE OF INSPECTOR GENERAL
                                                     Department of Homeland Security



            Leiter to :Ws. Clrarbet Ducken
            R' : Guam's Managemelll ojStoU Hom~land Securirv Program Grants Awarded During Fiscal Years 20fJ9-101 I
            Augu.ft 21J. lrJf 3
            Pagel ofl



                              Response and Propos ed Action - Recommendation #6:
                              The GHS/OCD will submit a request for Technical Assistance (TA) by the end of calendar yea r
                              2013.

                             Response and Proposed Action -Recommendation #7:
                             Strict monitoring from management will be enforced for employees to comply and submit
                             reports in a timely manner. The GHS/OCD will submit a request for Technical Assistance (TA)
                             by the end of calendar year 2013.

                         3. Sub11rant Management·
                            Yes, we concur with the find ings and recommendations.

                             Response and Proposed Action- Recommendation #8:
                             Prior to submission of grants, agreements with subgrantees will be established through
                             Memorandums of Agreement (MOA). For future grant submissions, MOAs will be discussed
                             three (3) months prior and established at least 30 days prior to submission.

                             Response and Proposed Action - Recommendation #9:
                             The GHSfOCD will ensure that all required signatures are obtained efficiently and In a timely
                             manner.

                             Response and Proposed Action- Recommendation # 10:
                             The GHS/OCD will coordinate a quarterly meeting with a ll program managers to ensure timely
                             spending and performance. Will also conduct site visits of subgrantees' performance effective 1
                             October 2013.

                      Within the last two and half years, the Guam Homeland Security 1 Office of Civil Defense has undergone
                      management disruption of its grants. There has been four (4) Homeland Security Advisors (HSA) and three
                      (3) Grants Managers. Since taking over three (3) mont hs ago, we have gone frum three (3) to seven (7) full-
                      time classified staff. With more classified staff in our organization, we are confident that the organization's
                      goals and objectives will be accomplished overtime.

                      Should you require additional Information relating to this matter, you may contact me at (671) 475-9600 or
                      email at ambroslo constantjno@ghs KYam KOv.




                                                                                     ~ce_     AMBROSIO D. CONSTANTINO, JR.
                                                                                              Homeland Security Advisor




www.oig.dhs.gov                                                                  27                                                     OIG-14-06

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



   Appendix C
   Description of the Homeland Security Grant Program
   The HSGP provides Federal funding to help State and local agencies enhance capabilities
   to prevent, deter, respond to, and recover from terrorist attacks, major disasters, and
   other emergencies. The HSGP encompasses several interrelated Federal grant programs
   that together fund a range of preparedness activities, including planning, organization,
   equipment purchase, training, and exercises, as well as management and administration
   costs. Programs include the following:

   �	 The State Homeland Security Program provides financial assistance directly to each
      of the States and Territories to prevent, respond to, and recover from acts of
      terrorism and other catastrophic events. The program supports the implementation
      of the State Homeland Security Strategy to address identified planning, equipment,
      training, and exercise needs.

   �	 The Urban Areas Security Initiative provides financial assistance to address the
      unique planning, equipment, training, and exercise needs of high-risk urban areas,
      and to assist in building an enhanced and sustainable capacity to prevent, respond
      to, and recover from threats or acts of terrorism and other disasters. Allowable costs
      for the urban areas are consistent with the SHSP. Funding is expended based on the
      Urban Area Homeland Security Strategies.

   The HSGP also includes other interrelated grant programs with similar purposes.
   Depending on the fiscal year, these programs include the following:

   �	 Metropolitan Medical Response System
   �	 Citizen Corps Program
   �	 Operation Stonegarden (beginning FY 2010)




www.oig.dhs.gov                               28                                	      OIG-14-06

                                                OFFICE OF INSPECTOR GENERAL
                                                         Department of Homeland Security


        Appendix D
        Guam Homeland Security Office of Civil Defense Organization
        Chart

                                                                        Homeland Security
                                                                          Administrator




                                                                             Director




Administration, Grants
                                                              Planning & Operations                                    Intelligence & Analysis    Recovery Coordination
  & Finance Grants
                                                                  Section Chief                                         Section Section Chief      Section Section Chief
      Manager



                                                                                             Critical Infrastructure
                                                                  Response Unit
                                  Preparedness Unit                                           Protection/Logistics                                         Special Projects
      Administrative Officer                                  Planning Program Staff                                             Detailed Staff
                                Program Coordinator III                                          Infrastructure                                             Coordiinator
                                                                     Assistant
                                                                                             Protection Coordinator



                                                                                                  Assistant Infrasturcture
     Administrative Assistant               Planner II               Civil Defense Officer
                                                                                                  Protection Coordinator




         Special Projects
                                      Program Coordinator I          Operations Assistant
          Coordinator




                                      Citizen Corps Program
              Clerk I
                                             Manager




                                        Training & Exercise
                                           Coordinator




  www.oig.dhs.gov                                                             29                                                                    OIG-14-06

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix E
   Threat and Hazard Identification and Risk Assessment
   The National Preparedness System establishes the process to define and achieve specific
   capability targets and meet the National Preparedness Goal. One of the six components
   of the National Preparedness System includes identifying and assessing risk. THIRA
   provides a comprehensive approach for identifying and assessing risks and associated
   impacts, using the core capabilities identified in the National Preparedness Goal and
   employing the following five-step process:

       1.	 Identify threats and hazards;
       2.	 Give threats and hazards context (assess vulnerability, how they affect the community);
       3.	 Examine core capabilities using the threats and hazards (estimate consequences,
           impacts to the community);
       4.	 Set capability targets; and
       5.	 Apply the results (use results for planning and preparedness activities, identify means to
           deliver target level of capability).

   THIRA submission is required of all 56 States and Territories receiving HSGP and
   Emergency Management Performance Grant funds and 31 eligible UASIs. The first THIRA
   submission was due December 31, 2012. Subsequent submissions will be an annual
   performance requirement for FEMA preparedness grant awards.

   In addition to the THIRA, States and Territories receiving FEMA preparedness grants are
   required to annually submit a State Preparedness Report. FEMA officials state that
   THIRA results and the State Preparedness Report will provide a quantitative summary of
   preparedness, document current capabilities and potential shortfalls, and set priorities
   for addressing shortfalls. FEMA officials also state that the State Preparedness Report
   results will be used by the States to identify funding requirements and set priorities for
   subgrantee project applications. The grant application (investment justification) must
   demonstrate how proposed projects address gaps and deficiencies in delivering one or
   more core capabilities outlined in the National Preparedness Goal, and as FEMA officials
   state, address capability gaps reported in the State Preparedness Report.

   FEMA officials said that the FY 2013 Homeland Security Grant Program funding
   announcement will require applicants to map proposed investments to specific core
   capabilities and capability gaps identified in the State Preparedness Reports, linking
   investments to actions that build and sustain capabilities aligned with the National
   Preparedness Goal. We have not had the opportunity to audit this process or the
   outcomes for this State.



www.oig.dhs.gov                                   30                                    	       OIG-14-06

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix F
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  31                        OIG-14-06

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
